AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN

     TECHNICAL ASSISTANCE PROGRAM GRANT

                AWARDED TO THE

           UNIVERSITY OF MINNESOTA

           MINNEAPOLIS, MINNESOTA



           U.S. Department of Justice

         Office of the Inspector General

                  Audit Division



           Audit Report GR-50-13-009

                   May 2013

   AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN

        TECHNICAL ASSISTANCE PROGRAM GRANT

                   AWARDED TO THE

              UNIVERSITY OF MINNESOTA

              MINNEAPOLIS, MINNESOTA


                            EXECUTIVE SUMMARY


      The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of an Office on Violence Against Women,
Technical Assistance Program cooperative agreement awarded to the
University of Minnesota. 1 The University of Minnesota was awarded
$487,500 under grant number 2011-TA-AX-K036 in May 2011 to fund its
Safe Return Initiative (SRI). SRI’s overarching goal is to improve the
capacity of local battered women’s programs, parole and community
supervision, and community-based organizations to address the needs of
battered women in relationships with men in prison, planning for release,
and on parole.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance
in the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures, including personnel and indirect costs; (4) budget
management and control; (5) federal financial and progress reports;
(6) grant award requirements; and (7) program performance and
accomplishments. We determined that matching costs, property
management, program income, and the monitoring of subgrantees were
not applicable to this grant. In addition, at the time of our review, the
grantee had not yet expended any funds from the contractual category.

      As of April 25, 2012, the grantee had drawn down $72,665 in grant
funds and had recorded expenses totaling $86,778. We examined the
University of Minnesota’s accounting records, federal financial and progress
reports, and operating policies and procedures. Our audit revealed that the
University of Minnesota generally complied with grant guidelines and
requirements. Our audit objectives, scope, and methodology are discussed
in Appendix I of the report.

      1
          We use the term “cooperative agreement” interchangeably with “grant” throughout
this report.
                              TABLE OF CONTENTS


INTRODUCTION........................................................................ 1


     Background.......................................................................... 1


     Our Audit Approach............................................................... 2


FINDINGS AND RECOMMENDATIONS ....................................... 4


     Accounting and Internal Controls ............................................ 4


     Grant Drawdowns ................................................................. 5


     Budget Management and Control ............................................ 7


     Grant Reporting.................................................................... 7


     Compliance with Grant Requirements ...................................... 9


     Program Performance and Accomplishments ............................ 9


     Views of Responsible Officials ................................................12


APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ......... 13


APPENDIX II - AUDITEE RESPONSE ....................................... 15


APPENDIX III - OFFICE ON VIOLENCE AGAINST

               WOMEN RESPONSE .................................... 16

                                  INTRODUCTION

       The Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of an Office on Violence Against
Women (OVW), Technical Assistance Program cooperative agreement
awarded to the University of Minnesota. 2 The University of Minnesota was
awarded $487,500 under grant number 2011-TA-AX-K036 to fund its Safe
Return Initiative (SRI). SRI’s overarching goal is to improve the capacity of
local battered women’s programs, parole and community supervision, and
community-based organizations to address the needs of battered women in
relationships with men in prison, planning for release, and on parole.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. As shown in the following table, the University of
Minnesota was awarded a total of $487,500 to support this program.

       TABLE 1. OFFICE ON VIOLENCE AGAINST WOMEN GRANT
           AWARDED TO THE UNIVERSITY OF MINNESOTA
                      PROJECT        PROJECT        AWARD
 AWARD NUMBER                                                           OBJECTIVE
                     START DATE      END DATE       AMOUNT
                                                               To improve the capacity of
                                                               battered women’s programs,
                                                               parole and community
                                                               supervision, and community-
                                                               based organizations to
2011-TA-AX-K036     04/01/2011      09/30/2013     $487,500
                                                               address the needs of
                                                               battered women in
                                                               relationships with men in
                                                               prison, planning for release,
                                                               and on parole.
                                          Total:   $487,500
 Source: Office on Violence Against Women

Background

      OVW provides federal leadership in developing the nation's capacity to
reduce violence against women and strengthen services to victims of
domestic violence, dating violence, sexual assault, and stalking. Created in
1995, OVW administers financial and technical assistance to communities
across the country that are developing programs, policies, and practices
      2
          We use the term “cooperative agreement” interchangeably with “grant” throughout
this report.
aimed at ending domestic violence, dating violence, sexual assault, and
stalking. Since its inception, OVW has awarded over $4.7 billion in grants
and cooperative agreements.

      The Institute of Domestic Violence in the African American
Community (IDVAAC), a specialized outreach center in the School of Social
Work at the University of Minnesota, was responsible for implementing the
audited grant. According to its grant application, IDVAAC intended to use
the OVW funds to continue to launch its Safe Return Initiative (SRI).
Through this award, SRI planned to expand its 15-jurisdiction learning
community to over 24 collaborating learning jurisdictions to address the
following goals and objectives:

      •	 Increase the knowledge and awareness of the needs and challenges
         of battered women with incarcerated partners/ex-partners soon to
         return to the community from prison;

      •	 Assist victim service providers in developing protocols and
         procedures to ensure the safety and support of women as well as
         identifying potential victims of domestic violence prior to their
         partner re-entering the community; and

      •	 Encourage collaboration between battered women service providers
         and parole programs.

      According to its application, IDVAAC and its partners planned to
implement all of the goals and objectives of the project by conducting
intensive training through national and regional conferences, training
seminars, web-based seminars, and audio-conference seminars.

Our Audit Approach

      We tested compliance with what we consider the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OVW Financial Grants Management
Guide, the Code of Federal Regulations, Office of Management and Budget
(OMB) Circulars, and the award documents. The OVW Financial Grants
Management Guide serves as a primary reference manual to assist award
recipients in fulfilling their fiduciary responsibility to safeguard grant funds
and ensure funds are used for the purposes for which they were awarded.
We tested the University of Minnesota’s:

      •	 Accounting and Internal Controls to determine whether the
         grantee had sufficient accounting and internal controls in place for


                                       -2­
        the processing and payment of funds and controls were adequate to
        safeguard grant funds and ensure compliance with the terms and
        conditions of the grant;

     •	 Grant Drawdowns to determine whether grant drawdowns were
        adequately supported and if the grantee was managing grant
        receipts in accordance with federal requirements;

     •	 Grant Expenditures including Personnel and Indirect Costs to
        determine the accuracy and allowability of costs charged to the
        grant;

     •	 Budget Management and Control to examine the amounts
        budgeted and the actual costs for each approved cost category and
        determine if the grantee deviated from the approved budget, and if
        so, if the grantee received the necessary approval;

     •	 Federal Financial Reports and Progress Reports to determine
        whether the required reports were submitted on time and
        accurately reflected grant activity;

     •	 Accomplishment of Grant Requirements and Objectives to
        determine if the grantee met or is capable of meeting the grant’s
        objectives and whether the grantee collected data and developed
        performance measures to assess accomplishment of the intended
        objectives.

      We also performed limited work and confirmed that the University of
Minnesota was not required to contribute any local matching funds, did not
purchase any accountable property, did not generate any program income,
and did not have any subgrantees or contractors at the time of our audit.
Therefore, we did not perform testing in these areas.




                                   -3­
               FINDINGS AND RECOMMENDATIONS

      We determined that the University of Minnesota generally
      complied with grant guidelines with respect to its internal control
      environment, drawdowns and expenditures, budget management
      and control, federal financial and progress reports, and grant
      requirements.

      We performed audit work at the University of Minnesota’s campus in
Minneapolis, Minnesota, where we obtained an understanding of the
accounting system and reviewed a sample of grant expenditures. We
reviewed the criteria governing grant activities, including the OVW Financial
Grants Management Guide, relevant OMB Circulars, and the Code of Federal
Regulations. In addition, we reviewed grant documents, including the
application, award, budgets, and financial and progress reports. We also
interviewed key personnel at the University of Minnesota.

Accounting and Internal Controls

      According to the OVW Financial Grants Management Guide, grant
recipients are required to establish and maintain accounting and internal
control systems to account accurately for funds awarded to them. Further,
the accounting system should ensure, among other things, the identification
and accounting for receipt, obligation, and disposition of all funds.

      We interviewed key University of Minnesota personnel, including the
Senior Finance Manager, Accountant, and Program Co-Executive Director,
regarding the University of Minnesota’s financial management system,
record-keeping practices, and methods for ensuring adherence to the terms
and conditions of the audited award. We also reviewed the University of
Minnesota’s policies, procedures, and accounting records to assess its risk of
non-compliance with laws, regulations, guidelines, and terms and conditions
of the award.

Financial Management System

      The OVW Financial Grants Management Guide requires grantees to
establish and maintain a system of accounting and internal controls that
adequately identifies grant costs. The system must include controls to
ensure that funds and other resources are used optimally and expenditures
of funds are in conformance with the general and special conditions
applicable to the recipient. Further, the OVW Financial Grants Management
Guide states that grantees should establish and maintain program accounts



                                     -4­
that will enable, on an individual basis, the separate identification and
accounting of the receipt, obligation, and disposition of all funds.

       Since July 2008, the University of Minnesota has been utilizing a
commercial, off-the-shelf financial management system. Invoices are
submitted to the accountant who enters them into the financial management
system. The invoice is then reviewed by a certified approver. The amounts
billed and reimbursed reflect dollars actually spent.

      We also interviewed staff and observed accounting activities and
processes to assess risk. The grantee has written policies and procedures on
several main topics, including: (1) accounting and financial oversight,
(2) budget, (3) cash management and investments, (4) equipment and
inventory, (5) procurement and payment, and (6) travel. The University of
Minnesota also has internal control guidelines. Based on our interviews with
University of Minnesota personnel and a review of the policies, we
determined that the manuals were current and were being followed by
employees.

Single Audit

       The University of Minnesota underwent a Single Audit Review for the
fiscal year ending June 30, 2011, which was prepared under the provisions
of the OMB Circular A-133. We reviewed the Single Audit, which disclosed
no material weaknesses, did not identify any internal control issues over
major programs, and designated the grantee as low-risk. The Single Audit
did not identify questioned costs or contain findings related to federal
awards. We were informed by the OVW that there have not been any site
visits, desk reviews, or other audits conducted on this grantee.

Grant Drawdowns

      We reviewed the University of Minnesota’s process for requesting OVW
reimbursement for grant-related costs to ensure that reimbursement
requests were supported adequately by official accounting records and were
in accordance with federal requirements. The University of Minnesota’s
Senior Finance Manager said that all drawdowns are requested on a
reimbursement basis. We compared the grantee’s general grant ledger to
OVW's drawdown report for the inception of the grant through April 25,
2012. As shown in the following table, the grantee’s recorded expenses
exceeded its drawdowns.




                                     -5­
            TABLE 2. COMPARISON OF DRAWDOWNS TO

    THE UNIVERSITY OF MINNESOTA’S RECORD OF EXPENDITURES

                                         GRANT
                                                                       CUMULATIVE      CUMULATIVE
                                     EXPENDITURES
   DATE OF         AMOUNT DRAWN                      CUMULATIVE       EXPENDITURES    EXPENDITURES
                                    PER ACCOUNTING
DRAWDOWN PER         DOWN PER                      DRAWDOWNS PER     PER UNIVERSITY       LESS
                                      RECORDS FOR
    OVW                OVW                             OVW            OF MINNESOTA     CUMULATIVE
                                      DRAWDOWN
                                                                         RECORDS      DRAWDOWNS
                                        PERIOD
  10/25/2011             $9,372          $15,695           $9,372         $15,695          $6,323
  01/23/2012             27,927           30,685           37,298          46,380           9,081
  04/25/2012             35,367           40,399           72,665          86,778          14,113
       TOTAL           $72,665 3        $86,7783
Source: Office on Violence Against Women and University of Minnesota

Grant Expenditures

      OVW reviewed and approved funding for the University of Minnesota in
seven categories: (1) personnel, (2) fringe benefits, (3) travel, (4) supplies,
(5) contractual, (6) other, and (7) indirect costs. The total amount of the
award was $487,500, which included an approved indirect cost rate. The
University of Minnesota was approved a 32-percent indirect cost rate by the
Department of Health and Human Services (HHS). Table 3 shows the
budgeted amounts by approved cost category.

                 TABLE 3. OVW-APPROVED BUDGET CATEGORIES
                                   APPROVED
     COST CATEGORY                                    DESCRIPTION OF PLANNED EXPENDITURES
                                    BUDGET

 Personnel                         $113,675        Compensation paid to employees
                                                   Funds allocated to cover costs of services not
 Fringe Benefits
                                     39,088        included as salaries and wages
                                                   Cost of staff travel incurred by personnel on
 Travel
                                     20,330        official business
 Supplies                            9,770         Office supplies, printing/duplicating costs
                                                   Subcontracts, contracts for professional
 Contractual
                                    175,835 4      services
                                                   Computer hardware & software, dues and
 Other
                                     10,620        subscriptions
 Indirect Cost                      118,182        HHS-approved indirect cost rate of 32 percent
 TOTAL PROJECT COSTS               $487,500
 Source: Office on Violence Against Women




         3
             Differences in totals are due to rounding.

         4
             As of June 15, 2012, no funds from the contractual category had been spent.



                                                 -6­
       As of April 25, 2012, total grant-related expenditures, as recorded in
the University of Minnesota’s accounting records, were $86,778, and the
University of Minnesota had been reimbursed a total of $72,665. To
determine the accuracy and allowability of costs charged to the grant, we
reviewed a sample of direct and indirect cost expenditures. We selected and
reviewed 17 direct cost expenditures totaling $17,844. We determined that
all transactions were generally accurate, supported, and allowable under
federal rules, regulations, and special conditions of the grant.

      We also selected and reviewed eight indirect cost expenditures totaling
$1,560. We verified that the federally approved indirect cost rate of
32 percent was correctly applied in each of the tested transactions. After
reviewing these transactions and the related supporting documentation, we
determined the transactions were supported, accurately posted to the
accounting records, and allowable under federal rules, regulations, and
special conditions of the grant. In total, we tested direct and indirect
transactions totaling $19,404.

Budget Management and Control

       According to the terms and conditions of the grant, a grantee may
transfer funds between approved budget categories without OVW approval if
the total transfers are 10 percent or less than the award amount. Requests
for transfers of funds between budget categories exceeding 10 percent must
be submitted to OVW for approval. We compared the amounts charged to
the approved budget amounts for each budget category. At the time of our
audit, the University of Minnesota’s actual expenditures were under the
award amount in all cost categories. Thus, there was no movement of
dollars between budget categories.

Grant Reporting

      The OVW Financial Grants Management Guide states that two types of
reports are to be submitted by the grantee. Federal Financial Reports (FFR)
provide information on monies spent and the unobligated amounts
remaining in the grant. Program progress reports provide information on
the status of grant-funded activities and other pertinent information.

Federal Financial Reports

      According to the OVW Financial Grants Management Guide, FFRs are
due no later than 30 days after the end of the calendar quarter for the entire
period of the award. The final FFR must be submitted no later than 90 days
following the end of the grant period. Funds or future awards may be


                                    -7­
withheld if reports are not submitted or if reports are submitted late. We
reviewed four of the FFRs submitted during our audit period. As shown in
the following table, the University of Minnesota submitted all four reports on
time.

          TABLE 4. TIMELINESS OF FEDERAL FINANCIAL REPORTS

   REPORT                                                    DATE            DAYS
   NUMBER            REPORT PERIOD                DUE DATE SUBMITTED         LATE
      1            04/01/11 - 06/30/11             07/30/11 07/13/11          0
      2            07/01/11 - 09/30/11             10/30/11 10/21/11          0
      3            10/01/11 - 12/31/11             01/30/12 01/18/12          0
      4            01/01/12 - 03/31/12             04/30/12 04/17/12          0
    Source: Office on Violence Against Women

      We also compared the grant-related expenditures reflected on the
FFRs to the University of Minnesota’s accounting records. As shown in the
following table, the expenditures reported on the FFRs matched those in the
grant ledger.

          TABLE 5. ACCURACY OF FEDERAL FINANCIAL REPORTS
                    FFR REPORT               EXPENDITURES
           FFR                  EXPENDITURES
                    PERIOD END                 PER GRANT
          NUMBER                   PER FFR
                        DATE                    LEDGER
            1      06/30/2011            $0           $0
            2      09/30/2011         9,372        9,372
            3      12/31/2011       27,927       27,927
            4      03/31/2012       35,367       35,367
                                           5
                  Total           $72,665      $72,6655
          Source: Office on Violence Against Women and the University of Minnesota

Progress Reports

      According to the OVW Financial Grants Management Guide, Categorical
Assistance Progress Reports are due semiannually on January 30 and July 30
for the life of the award. We reviewed two progress reports submitted
during the award and found that both of the reports were submitted by
OVW’s established deadline.




      5
          Differences in totals are due to rounding.


                                             -8­
             TABLE 6. TIMELINESS OF PROGRESS REPORTS

REPORT                                                        DATE       DAYS
                   REPORT PERIOD                 DUE DATE
NUMBER                                                      SUBMITTED    LATE
  1       01/01/2011 – 06/30/2011            07/30/2011     07/18/2011    0
  2       07/01/2011 – 12/31/2011            01/30/2012     01/23/2012    0
Source: Office on Violence Against Women

       As for the content of the progress reporting, we found that the reports
did list the specific program activities that occurred during those time
frames. The program goals, as outlined in the grant application, mirrored
what was reported in the progress reports as actual accomplishments and
activities conducted. In our judgment, the reports provided adequate
information to determine the status of the tasks undertaken for the period.

Compliance with Grant Requirements

      We reviewed the special conditions of the grant award and identified
23 requirements. Examples of these conditions are to: (1) submit quarterly
Federal Financial Reports, (2) submit semiannual progress reports that
describe project activities during the reporting period, (3) work
collaboratively with its project partners to implement the grant project, and
(4) adhere to the OVW Financial Grants Management Guide. No instances of
non-compliance with any of the special conditions were identified.

Program Performance and Accomplishments

       The main overarching goal of the University of Minnesota’s Safe Return
Initiative (SRI) project is to improve the capacity of local battered women’s
programs, parole/community supervision, and community-based
organizations to address the needs of battered women in relationships with
men in prison, planning for release, and on parole. According to the grant
application, this would be accomplished by breaking the SRI into 3 goals:
(1) increasing the knowledge and awareness of the needs and challenges of
battered women with incarcerated partners/ex-partners soon to return to
the community from prison, (2) assisting victim service providers on
developing protocols and procedures to ensure the safety and support of
women as well as identifying potential victims of domestic violence prior to
their partner re-entering to the community, and (3) encouraging
collaboration between battered women service providers and parole
programs.

      We observed grant-related activity, reviewed documentation, and
interviewed University of Minnesota staff to determine whether the grant
objectives that were identified in the grant application were being met.


                                           -9­
When we asked University of Minnesota officials about the grant objectives,
they told us that each of the grant objectives is being met and that to
achieve the outlined goals, the grantee had broken down its efforts into
seven individual objectives, as detailed in the following chart.




                                   - 10 ­
  TABLE 7. UNIVERSITY OF MINNESOTA SAFE RETURN INITIATIVE

                   GOALS AND OBJECTIVES

      Goals
  Accomplished                       Objective                 Activities Performed
                       Conduct a national assessment of      Collected and analyzed
Overarching Goal       battered women’s programs’            data for 8 states towards
Goal 1                 knowledge of and response to          an assessment of
Goal 3                 women in relationships with men       battered women’s
                       in prison and on parole.              programs’ knowledge.
                       Conduct a roundtable discussion       Conducted an
Overarching Goal       with 24 jurisdictions that comprise   assessment in October
Goal 1                 SRI’s learning community and          2009 of a 2009
Goal 2                 facilitate information sharing        roundtable discussion
Goal 3                 among this learning community.        focused on learning
                                                             communities.
                       Offer a series of webcast trainings   Scheduled webinars on
Overarching Goal       on specialized topics related to      SRI and group work with
Goal 1                 prisoner re-entry and domestic        men in prison and
Goal 2                 violence.                             battered women in
Goal 3                                                       relationships with men
                                                             on parole for May 2013.
                       Provide on-site assistance to         Conducted on-site
Overarching Goal       communities involved in SRI’s         training on SRI for New
Goal 1                 learning community. Focus on          York State Department
Goal 3                 the intersection between prisoner     of Parole and Corrections
                       re-entry and domestic violence.       in June 2012.
                       Conduct presentations, workshop       Presented at the National
                       training events, and conferences      Coalition on Domestic
                       sponsored by national partner         Violence Conference in
Overarching Goal
                       organizations.                        July 2012 and at the
Goal 1
                                                             Institute on Violence
Goal 3
                                                             Abuse and Trauma
                                                             Conference in
                                                             September 2012.
                       Conduct a roundtable with judges      SRI roundtable
                       on prisoner re-entry and domestic     scheduled for May 2013.
                       violence to identify ways to be
Overarching Goal
                       more proactive through
Goal 3
                       addressing the issue of re-entry
                       and domestic violence at
                       sentencing.
                       Develop video clips for use in        Produced SRI “Building
Overarching Goal
                       training programs, roundtables,       Bridges” DVD for Parole
Goal 1
                       and on-site assistance, and a final   and Battered Women’s
Goal 2
                       DVD on lessons learned from SRI       Advocates.
Goal 3
                       and its learning communities.
Source: University of Minnesota SRI



                                        - 11 ­
       We discussed with grantee officials some of the activities described in
Table 7. The officials described the roundtable discussion as addressing
issues in domestic violence among men and their families. The grantee
provided us with a copy of the 2005 roundtable brief as well as a report on
the SRI, and an assessment of a 2009 roundtable. We reviewed the
roundtable brief, which stated that re-entry planning begins at sentencing,
programming should focus on rehabilitation, the community must be
involved in the re-entry process, and all the services provided must be
holistic. We also reviewed the SRI report and found that it observed a
continuing demand among community-based organizations for information
and assistance regarding domestic violence and re-entry in the African
American community.

       We also confirmed that the grantee has scheduled future onsite
trainings, presentations, and webinars that will last throughout the
remainder of the grant period. Additionally, the Co-Executive Director
informed us that articles on the following two subjects will be published:
(1) working with battered women in relationships with men on parole, and
(2) working with men who are on parole. The articles will be distributed to
domestic violence advocates across the country.

       According to the Co-Executive Director, the SRI will continue to
provide community education, training, and on-site assistance to criminal
justice, community-based groups, and faith-based organizations, and
transfer lessons to their peers in other communities around the country to
keep African American families safe as prisoners return to their communities.
The Co-Executive Director stated that once the grant ends, he hopes that
people will continue to visit the website to learn about the intersection of
domestic violence and prisoner re-entry. The local communities are aware
of the program and the knowledge that they have acquired will be passed on
to those who will be in need of assistance in the future.

      Overall, we found that the University of Minnesota appears to be
implementing the goals and objectives of the grant by conducting training
through national and regional conferences, training courses, web-based
seminars, and audio-conferences. All the activities targeted the goals of the
grant and were designed to increase the knowledge and awareness of the
needs and challenges of battered women.

Views of Responsible Officials

       We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference, and we have included
their comments as appropriate.


                                    - 12 ­
                                                                APPENDIX I



            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards and included such tests as were
considered necessary to accomplish our objectives. Those standards
require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

       Our audit concentrated on, but was not limited to, the expenditures
and reimbursements from May 20, 2011, through April 25, 2012. This was
an audit of OVW grant number 2011-TA-AX-K036, for which the University
of Minnesota was awarded a total of $487,500. In conducting our audit, we
reviewed FFRs and progress reports and performed sample testing in award
expenditures, including salary, fringe benefits, and indirect costs. Our
testing was conducted by judgmentally selecting a sample of expenditures,
along with a review of internal controls and procedures for the grant that we
audited. Judgmental sampling design was applied to obtain broad exposure
to numerous facets of the grant reviewed, such as dollar amounts,
expenditure category, or risk. This non-statistical sample design does not
allow for projection of the test results to all grant expenditures or internal
controls and procedures. In total, the University of Minnesota had drawn
down $72,665 and recorded grant-related costs totaling $86,778 as of
April 25, 2012. We tested 25 grant-related transactions, which totaled
$19,404. More specifically, we tested $17,844 in direct costs and $1,560 in
indirect costs.

       We tested compliance with what we consider to be the most important
conditions of the grant agreement. Unless otherwise stated in our report,
the criteria we audit against are contained in the OVW Financial Grants
Management Guide, the Code of Federal Regulations, OMB Circulars, and the
award documents. We reviewed the University of Minnesota’s grant
activities and performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) grant expenditures, including personnel
and indirect costs; (4) budget management and control; (5) federal financial
and progress reports; (6) grant award requirements; and (7) program


                                    - 13 ­
performance and accomplishments. We determined that matching costs,
property management, program income, and monitoring subgrantees were
not applicable to this grant. At the time of our review, the grantee had not
yet expended any funds from the contractual category.

       We performed limited testing of source documents to assess the
timeliness and accuracy of FFRs, reimbursement requests, expenditures, and
progress reports; evaluated performance to grant objectives; and reviewed
the grant-related internal controls over the financial management system.
We tested invoices associated with transactions shown in the University of
Minnesota’s grant ledger as of April 25, 2012. However, we did not test the
reliability of the financial management system as a whole and reliance on
computer-based data was not significant to our objectives.

      Our audit included an evaluation of the University of Minnesota’s most
recent Single Audit Review. The review was for the period ending June 30,
2011. The Single Audit Report was prepared under the provisions of Office
of Management and Budget Circular A-133. We reviewed the Single Audit,
which disclosed no material weaknesses, did not identify any internal control
issues over major programs, and designated the grantee as low risk. The
Single Audit Report did not contain questioned costs or findings related to
federal awards.




                                    - 14 ­
                                                                                          APPENDIX II

                                   AUDITEE RESPONSE

UNIVERSITY OF MINNESOTA
Twin Cities Campus                             Sponsored Financial Reporting   Suite 450 McNamara Alumni Center
                                                                               200 Oak Street S.E.
                                                                               Minneapolis, MN 55455
                                                                               Office 612-624-4313
                                                                               Fax 612-626-0321


March 27, 2013




Carol S. Taraszka
Regional Audit Manager
U.S. Department of Justice
Office of the Inspector General
Chicago Regional Audit Office
500 W Madison Street, Suite 1121
Chicago, IL 60661-2590

SUBJ: US DOJ OIG audit of grant 2011-TA-AX-K036, PI: Oliver Williams, CON30084

Dear Ms. Taraszka:

The University of Minnesota concurs with the draft audit report of the sponsored award referenced
above.

Sincerely,



/S/

Sue Paulson
Finance Director
Sponsored Financial Reporting
University of Minnesota
612-624-5007
spaul@umn.edu




Driven to Discover



                                                - 15 ­
                                                                              APPENDIX III


                      OFFICE ON VIOLENCE
                   AGAINST WOMEN RESPONSE


                                                            U.S. Department of Justice
                                                            Office on Violence Against Women
                                                            Washington, D.C. 20530


                                                                    May 7, 2013


MEMORANDUM


TO:                            Carol S. Taraszka Regional
                               Audit Manager Chicago
                               Regional Audit Office

FROM:                          Bea Hanson /S/
                               Acting Director
                               Office on Violence Against Women

                               Rodney Samuels /S/
                               Audit Liaison/Staff Accountant
                               Office on Violence Against Women

SUBJECT:                       Audit of the Office on Violence Against Women Technical
                               Assistance Program Awarded to the University of Minnesota
                               Minneapolis, Minnesota

This memorandum is in response to your correspondence dated March 22, 2013 transmitting the
above audit report for the University of Minnesota. After reviewing the referenced report and noting
that there were no recommendations to resolve, the Office on Violence Against Women (OVW) has
no further comments to be made regarding your review.

We appreciate the opportunity to review and comment on the draft report. If you have any
questions or require additional information, please contact Rodney Samuels of my staff at (202)
514-9820.

cc    Angela Wood
      Accounting Officer
      Office on Violence Against Women (OVW)

      Louise M. Duhamel, Ph.D.
      Acting Assistant Director
      Audit Liaison Group
      Justice Management Division


                                            - 16 ­
Katherine Mera
Program Specialist
Office on Violence Against Women




                                   - 17 ­
